Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




   QUESTIONABLE BILLING
  FOR MEDICAID PEDIATRIC
     DENTAL SERVICES
       IN NEW YORK




                         Brian P. Ritchie
                 Acting Deputy Inspector General
                  for Evaluation and Inspections

                         March 2014
                        OEI-02-12-00330
EXECUTIVE SUMMARY: QUESTIONABLE BILLING FOR MEDICAID
PEDIATRIC DENTAL SERVICES IN NEW YORK
OEI-02-12-00330

WHY WE DID THIS STUDY
Medicaid is the primary source of dental coverage for children in low-income families and
provides access to dental care for approximately 35 million children. In recent years, a
number of dentists and dental chains have been prosecuted for providing unnecessary dental
procedures to Medicaid children, as well as for causing harm to children while performing
these procedures.

HOW WE DID THIS STUDY
We based our analysis on New York Medicaid fee-for-service paid claims for general
dentists and orthodontists who provided services to 50 or more children in 2012. Using
several measures, we identified dental providers with questionable billing who are extreme
outliers when compared to their peers.

WHAT WE FOUND
We identified 23 general dentists and 6 orthodontists in New York with questionable billing.
These providers are extreme outliers when compared to their peers. Medicaid paid these
providers $13.2 million for pediatric dental services in 2012.

Notably, these 29 general dentists and orthodontists—representing 3 percent of dental
providers we reviewed—received extremely high payments per child; provided an extremely
large number of services per child; or provided certain selected services, such as
pulpotomies or extractions, to an extremely high proportion of children. Additionally,
almost a third of the general dentists were associated with a single dental chain that had
settled lawsuits for providing services that were medically unnecessary or that failed to meet
professionally recognized standards of care to children.

Our findings raise concerns that certain providers may be billing for services that are not
medically necessary or were never provided. They also raise concerns about the quality of
care provided to Medicaid children. Although some of their billing may be legitimate,
providers who bill for extremely large amounts of services warrant further scrutiny.

WHAT WE RECOMMEND
We recommend that the New York State Department of Health (1) continue to monitor
general dentists and orthodontists to identify patterns of questionable billing, (2) ensure that
the State employs adequate safeguards to monitor general dentists and orthodontists under
managed care, and (3) ensure appropriate followup on the general dentists and orthodontists
identified as having questionable billing. The New York State Department of Health neither
agreed nor disagreed with our recommendations. However, it identified actions it has taken
or plans to take that support our first recommendation. It also outlined current requirements
and processes that are in place that support our second recommendation. It did not indicate
whether any steps were planned to address our third recommendation.
TABLE OF CONTENTS

Objectives.................................................................................................... 1 

Background ................................................................................................. 1 

Methodology ............................................................................................... 3 

Findings....................................................................................................... 6 

           Twenty-nine general dentists and orthodontists in New York 

           had questionable billing in 2012 ..................................................... 6 

Conclusion and Recommendations ........................................................... 11

           Agency Comments and Office of Inspector General Response .... 13 

Appendix ................................................................................................... 14 

           Agency Comments ........................................................................ 14 

Acknowledgments ..................................................................................... 17 

                   OBJECTIVE
                   To identify general dentists and orthodontists with questionable billing for
                   Medicaid pediatric dental services in New York.

                   BACKGROUND
                   Medicaid is the primary source of dental coverage for children in
                   low-income families and provides access to dental care for approximately
                   35 million children.1,2 Medicaid’s Early and Periodic Screening,
                   Diagnostic and Treatment (EPSDT) benefit requires States to cover all
                   medically necessary dental services for children 18 years of age and
                   under.3 Medicaid dental services must include diagnostic and preventative
                   services, as well as needed treatment and follow-up care. Diagnostic
                   services may include x-rays of the mouth; preventative services may
                   include cleanings, topical fluoride applications, and dental sealants.
                   Dental treatment covers a wide range of services such as fillings; tooth
                   extractions; and pulpotomies, which are often referred to as “baby root
                   canals.”
                   New York’s Medicaid program also provides limited services for
                   orthodontia. The State does not allow orthodontic treatment for purely
                   cosmetic purposes; however, it will allow such treatment in instances of a
                   “severe handicapping malocclusion.”4 This type of malocclusion occurs
                   when a child’s teeth are so far out of position that he or she cannot engage
                   in normal activities—such as eating and talking—without difficulty. 5 It is
                   commonly associated with other medical conditions such as Down
                   syndrome, muscular dystrophy, or craniofacial anomalies such as a cleft
                   lip or palate. A provider must receive prior approval from the State before
                   providing orthodontic treatment to a child.



                   1
                     Thomas P. Wall, Dental Medicaid – 2012, American Dental Association (ADA), 2012.
                   2
                     Centers for Medicare & Medicaid Services (CMS), Annual EPSDT Participation
                   Report, Form CMS-416 (National), Fiscal Year 2011, December 20, 2012.
                   3
                     Social Security Act (SSA) § 1905(r)(3); 42 CFR § 441.56. Dental services are covered
                   up to age 18, but States may choose to extend eligibility through age 21. New York is
                   among the States that have done so. 

                   4
                     New York State Medicaid Program, Dental Policy and Procedure Manual, 

                   May 15, 2011. 

                   5
                     Christine Ellis, University of Texas Southwestern Medical Center, Division of Oral and

                   Maxillofacial Surgery, written Congressional testimony, Is Government Adequately 

                   Protecting Taxpayers from Medicaid Fraud?, April 25, 2012. Accessed at

                   http://oversight.house.gov/wp-content/uploads/2012/04/4-25-12-Ellis-Testimony.pdf on

                   October 30, 2013. 



Questionable Billing for Medicaid Pediatric Dental Services in New York (OEI-02-12-00330)                 1
                   In recent years, a number of individual dentists and chains have been
                   prosecuted for providing services that were medically unnecessary or that
                   failed to meet professionally recognized standards of care. These
                   providers have often been found to have suspect Medicaid billing patterns
                   when compared to their peers. For example, a dental provider in New
                   York billed Medicaid for 991 procedures on a single day; she was later
                   convicted of grand larceny and her license was revoked.6 In addition,
                   FORBA Holdings LLC, a dental management company that manages
                   clinics nationwide known as “Small Smiles Centers,” settled with the
                   United States in 2010 for $24 million to resolve allegations of providing
                   services that were either medically unnecessary or performed in a manner
                   that failed to meet professionally recognized standards of care to Medicaid
                   children.7 As part of the settlement, FORBA agreed to enter into a 5-year
                   corporate integrity agreement with OIG.
                   In 2012, New York State transitioned Medicaid pediatric dental services
                   from fee-for-service to managed care. Prior to this transition, New York
                   offered Medicaid pediatric dental services both on a fee-for-service and
                   managed care basis; however, after July 2012, most dental services were
                   offered through managed care. Orthodontic services were offered through
                   managed care after October 2012.
                   This report is part of a series. Other reports will examine Medicaid
                   dentists in a number of other States. An additional report will determine
                   the extent to which children enrolled in Medicaid received dental services
                   in these States.
                   Related Work
                   In a recent audit, OIG found that providers inappropriately billed for
                   orthodontic services provided to 43 of 100 sampled beneficiaries in
                   New York City, totaling an estimated $7.8 million in inappropriate
                   reimbursement.8 Some of these services were provided without the
                   required approval, whereas other services were undocumented or were
                   never provided. These deficiencies occurred because the State agency and
                   providers did not ensure that cases were reviewed annually to determine

                   6
                     Clifford J. Levy and Michael Luo, “New York Medicaid Fraud May Reach Into
                   Billions,” The New York Times, July 18, 2005. Accessed at http://www.nytimes.com/
                   2005/07/18/nyregion/18medicaid.html on January 9, 2013. Also see New York State
                   Education Department, Office of the Professions, Summaries of Regents Actions on
                   Professional Misconduct and Discipline, November 2010. Accessed at
                   http://www.op.nysed.gov/opd/nov10.htm on January 9, 2013.
                   7
                     U.S. Department of Justice (DOJ), National Dental Management Company Pays
                   $24 Million to Resolve Fraud Allegations, January 20, 2010. Accessed at
                   http://www.justice.gov/opa/pr/2010/January/10-civ-052.html on July 13, 2012.
                   8
                     OIG, New York Improperly Claimed Medicaid Reimbursement for Orthodontic Services
                   to Beneficiaries in New York City, A-02-11-01003, October 2013.


Questionable Billing for Medicaid Pediatric Dental Services in New York (OEI-02-12-00330)          2
                   the need for continuing care and did not ensure that services were
                   adequately documented. OIG is also conducting a number of audits of
                   individual dental providers to determine whether they inappropriately
                   billed Medicaid for pediatric dental services.9

                   METHODOLOGY
                   We based our analysis on New York Medicaid fee-for-service paid claims
                   with service dates between January 1, 2012, and December 31, 2012.10 We
                   excluded claims for services provided on a managed care basis or with
                   special payment rates, such as those submitted by Federally Qualified
                   Health Centers; State and local agencies; and facilities operated by
                   university dental-school clinics.11
                   To compare dentists to their peers, we focused our analysis on general
                   dentists and excluded dentists who indicated a specialty on their claims,
                   such as pediatric dental specialists, oral surgeons, and dental
                   anesthesiologists.12 We excluded these specialists because their billing
                   patterns are often different from those of general dentists. We looked at
                   “rendering dentists”—the dentists who provided the services, as opposed
                   to billing dentists—to ensure that we compared claims from the dentists
                   who provided the services. Our analysis focused on 719 general dentists
                   who provided services to 50 or more Medicaid children during 2012.
                   These dentists served a total of 119,102 Medicaid children. We conducted
                   a separate analysis of 165 orthodontists who provided services to 50 or
                   more Medicaid children during this same time period.13 These
                   orthodontists served a total of 83,894 Medicaid children. We analyzed the
                   orthodontists separately because their billing patterns differed from those
                   of general dentists.


                   9
                     OIG, Dental Services for Children—Inappropriate Billing, OAS-W-00-10-31135,
                   OAS-W-00-11-31135, and OAS-W-00-12-3113, forthcoming.
                   10
                      Over three-quarters of New York Medicaid pediatric dental fee-for-service claims were
                   for services provided before July 1, 2012. Although New York began offering most
                   dental services through managed care on that date, and began offering orthodontic
                   services through managed care in October 2012, it paid for fee-for-service claims for
                   services provided until the end of December 2012.
                   11
                      We also excluded services provided in a hospital setting because dental services
                   provided in hospitals differ greatly from those provided in an office setting. In total, we
                   identified 3,194 dental providers who provided services to Medicaid children in 2012 on
                   a fee-for-service basis.
                   12
                      Two hundred and four dentists reported one of the following specialties on their
                   claims: oral surgeon, pediatric dental specialist, endodontist, oral pathologist,
                   periodontist, or anesthesiologist. We did not include these dentists in our analysis.
                   13
                      A total of 238 orthodontists provided services to Medicaid children in 2012 on a
                   fee-for-service basis. Of these, 165 orthodontists provided services to 50 or more
                   Medicaid children.


Questionable Billing for Medicaid Pediatric Dental Services in New York (OEI-02-12-00330)                   3
                   We developed a number of measures to identify dentists with questionable
                   billing who are extreme outliers when compared to their peers. We
                   developed these measures based on input from officials from CMS, the
                   New York State Office of the Medicaid Inspector General, the New York
                   State Department of Health, The American Academy of Pediatric
                   Dentistry, and The American Dental Association. We developed these
                   measures to capture several different types of fraud and abuse. For these
                   measures, we included only the Medicaid children served by these general
                   dentists or orthodontists; we did not include other children whom they
                   served.
                   For each general dentist, we calculated the following three measures for
                   2012:
                        •    the average Medicaid payment per child served,
                        •    the average number of services provided per child, and
                        •    the average number of services provided per day.
                   We developed four additional measures for general dentists who provided
                   selected services in 2012. For each dentist who provided the following
                   service, we calculated the proportion of Medicaid children who received:
                        •    fillings,
                        •    extractions,
                        •    stainless steel crowns, and
                        •    pulpotomies.
                   For each measure, we analyzed the averages and the distribution for all
                   general dentists.
                   Next, we set a threshold for each measure that, if exceeded, indicated that
                   the dentist had billed an extremely large amount compared to other general
                   dentists in the State. We modified a standard technique for identifying
                   outliers, known as the Tukey method.14 Under the Tukey method, outliers
                   are those values greater than the 75th percentile plus 1.5 times the
                   interquartile range. 15 To determine extreme outliers, we employed a more
                   conservative approach, looking at those values greater than the
                   75th percentile plus three times the interquartile range. We considered
                   dentists who exceeded one or more of these thresholds to have
                   questionable billing.


                   14
                     See J.W. Tukey, Exploratory Data Analysis. Addison-Wesley, 1977.
                   15
                     The interquartile range is calculated by subtracting the value at the 25th percentile from
                   the value at the 75th percentile.


Questionable Billing for Medicaid Pediatric Dental Services in New York (OEI-02-12-00330)                    4
                   We did a separate analysis of orthodontists. New York State has strict
                   criteria for orthodontic services; in addition, orthodontists may bill for
                   only a limited number of services. Providers receive a one-time payment
                   for “comprehensive orthodontic treatment”—generally, this is the initial
                   placement of braces on the teeth. They may also bill for periodic
                   treatment services once per quarter—regardless of the number of visits
                   provided—which covers the ongoing maintenance of the orthodontia. The
                   remaining few orthodontic services may be billed for as they are
                   provided. In addition to billing for orthodontic treatment services,
                   orthodontists may also bill for related diagnostic services, such as x-rays.
                   For our analysis of orthodontists, we calculated two measures for each
                   orthodontist: (1) the total number of children served and (2) the average
                   number of services provided per child. As with our analysis for general
                   dentists, for each of these measures, we set the thresholds for extreme
                   outliers at the 75th percentile plus 3 times the interquartile range.
                   Orthodontists who exceeded these thresholds were extreme outliers
                   compared to their peers, and we considered them to have questionable
                   billing.16
                   For each general dentist or orthodontist who exceeded one or more of the
                   thresholds, we conducted Internet searches on the provider’s background
                   and analyzed his or her claims and payment history. In a number of cases,
                   we excluded dentists or orthodontists who were affiliated with university
                   dental-school clinics or who were actually specialists but had not indicated
                   this on their claims. For the remaining providers, we researched public
                   records available on LexisNexis and from the New York and New Jersey
                   State licensing boards to determine whether the providers had malpractice
                   lawsuits brought against them.
                   Limitations
                   We designed this study to identify general dentists and orthodontists who
                   warrant further scrutiny. None of the measures we analyzed confirm that a
                   particular provider is engaging in fraudulent or abusive practices. Some
                   providers may be billing extremely large amounts for legitimate reasons.
                   Standards
                   This study was conducted in accordance with the Quality Standards for
                   Inspection and Evaluation issued by the Council of the Inspectors General
                   on Integrity and Efficiency.


                   16
                     We did not determine whether orthodontists exceeded thresholds for the four selected
                   services that we analyzed for general dentists. Orthodontists generally provide a limited
                   set of services, bundled together into a broad “orthodontic treatment” claim, and do not
                   usually provide the four selected services that we analyzed for general dentists.


Questionable Billing for Medicaid Pediatric Dental Services in New York (OEI-02-12-00330)                  5
                   FINDINGS
                   Twenty-nine general dentists and orthodontists in
                   New York had questionable billing in 2012
                   We identified 23 general dentists and 6 orthodontists with questionable
                   billing. We identified these providers by looking at general dentists and
                   orthodontists in New York who provided services to more than
                   50 Medicaid children in 2012.
                   The providers with questionable billing patterns are extreme outliers when
                   compared to their peers and make up 3 percent of the general dentists and
                   orthodontists we reviewed. 17 In aggregate, they provided care to
                   14 percent of the Medicaid children served by the providers we reviewed.
                   Medicaid paid these 29 providers $13.2 million for pediatric dental
                   services in 2012.
                   Almost a third of the general dentists with questionable billing were
                   associated with a single dental chain that had settled with the
                   U.S. Government, as well as with New York State, for providing services
                   that were medically unnecessary or that failed to meet professionally
                   recognized standards of care to children.
                   These billing patterns indicate that certain dental providers may be billing
                   for services that are not medically necessary or were never provided.
                   Although some of this billing may be legitimate, providers who bill for
                   extremely large amounts of services warrant further scrutiny.

                   Five General Dentists Received Extremely High Payments Per
                   Child
                   General dentists who served 50 or more Medicaid children in New York
                   received an average payment of $206 for each Medicaid child. Five
                   dentists, however, averaged more than two times this amount, receiving an
                   average of more than $482 per child. One dentist averaged $878 per child.
                   For more than 20 children, this dentist was paid over $1,500 per child, or
                   7 times the average payment. Extremely high payments per child raise
                   concerns about whether these dentists are billing for services that are
                   unnecessary or that they did not provide.




                   17
                     The 719 general dentists and 165 orthodontists whom we reviewed served a total of
                   194,225 Medicaid children. Some children were seen by both a general dentist and an
                   orthodontist.


Questionable Billing for Medicaid Pediatric Dental Services in New York (OEI-02-12-00330)                6
                   Two General Dentists Provided an Extremely Large Number of
                   Services Per Child
                   General dentists in New York provided an average of five services per
                   Medicaid child. Two dentists, however, averaged 12 or more services per
                   child, with one dentist averaging 16 services per child.
                   Both of these dentists provided not only extremely large numbers of
                   services per child, but also extremely large numbers of services per visit,
                   raising concerns about the quality of care provided. For example, one
                   dentist provided fillings on 42 separate tooth surfaces for the same child
                   during the same visit.

                   Thirteen General Dentists Provided an Extremely Large Number
                   of Services Per Day
                   General dentists in New York provided an average of 10 services per day
                   to Medicaid children. Thirteen dentists, however, averaged more than
                   23 services per day, with 1 dentist averaging 54 services per day. One
                   dentist provided 179 services in a single day. If this dentist spent only
                   5 minutes performing each service, it would have taken him over 15 hours
                   to complete all of these services. An extraordinarily large number of
                   services per day raises concerns that a dentist may be billing for services
                   that were not necessary or were never provided. It also raises concerns
                   about the quality of care being provided. See Table 1 for more
                   information on general dentists with extremely high average payments or
                   large numbers of services.

                   Table 1: General Dentists With Extremely High Average Payments or
                   Large Numbers of Services
                                                      Average for General         Threshold for          Number of Dentists
                              Measure                     Dentists *              Questionable             Who Exceeded
                                                                                     Billing                Threshold
                     Average Payments Per
                                                                         $206                 $482                        5
                     Child
                     Average Number of
                                                                             5                      12                    2
                     Services Per Child
                     Average Number of
                                                                           10                       23                  13
                     Services Per Day

                     Source: OIG analysis of New York Medicaid claims data, 2013.
                     Note: Three dentists exceeded two thresholds.
                     * Includes general dentists who served 50 or more Medicaid children in 2012.




Questionable Billing for Medicaid Pediatric Dental Services in New York (OEI-02-12-00330)                                     7
                   Six General Dentists Provided Selected Services to an
                   Extremely High Proportion of Children
                   Four general dentists performed extractions on an extremely high
                   proportion of Medicaid children. Over 38 percent of the children served
                   by these dentists had one or more teeth extracted, compared to an average
                   of 10 percent of children served by all general dentists providing
                   extractions in the State. One dentist performed extractions on 76 percent
                   of the children he served. These four dentists provided an average of three
                   extractions per child.
                   Two general dentists provided pulpotomies—often referred to as “baby
                   root canals”—to an extremely high proportion of Medicaid children. At
                   least 14 percent of the children served by these dentists received
                   pulpotomies, compared with only 4 percent of children served by all
                   general dentists who provided pulpotomies. These dentists frequently
                   provided three or more pulpotomies during a single visit, with one dentist
                   performing as many as six pulpotomies during the same visit on a 2-year-
                   old child.18 See Table 2 for more information on general dentists who
                   provided selected services to an extremely high proportion of children.


                   Table 2: General Dentists Who Provided Selected Services to an Extremely
                   High Proportion of Children They Served
                                                     Average for General          Threshold for      Number of Dentists
                             Measure                      Dentists *               Questionable        Who Exceeded
                                                                                      Billing           Threshold
                     Proportion of children with
                                                                         10%                   38%                    4
                     extractions
                     Proportion of children with
                                                                           4%                  14%                    2
                     pulpotomies

                     Source: OIG analysis of New York Medicaid claims data, 2013.
                     * Includes general dentists who served 50 or more Medicaid children in 2012.




                   18
                      Note that no dentists exceeded the thresholds for the proportions of Medicaid children
                   receiving stainless steel crowns or fillings. General dentists provided stainless steel
                   crowns to an average of 7 percent of children served; however, none of the dentists
                   exceeded the threshold of 23 percent. Similarly, general dentists provided fillings to an
                   average of 29 percent of children served; however, none of the dentists exceeded the
                   threshold of 85 percent.


Questionable Billing for Medicaid Pediatric Dental Services in New York (OEI-02-12-00330)                                 8
                   Almost a Third of the General Dentists With Questionable
                   Billing Were Associated With a Single Dental Chain
                   Seven of the twenty-three general dentists with questionable billing were
                   associated with the same dental chain.19 The chain’s two clinics in
                   New York stopped billing Medicaid in April 2012, after their management
                   company decided to close the clinics and stop practicing in the State.
                   The closures took place after the chain settled with the U.S. Government,
                   as well as with New York State, to resolve allegations of providing
                   services that were either medically unnecessary or were performed in a
                   manner that failed to meet professionally recognized standards of care to
                   children.
                   For one additional dentist not associated with that chain, a State Board of
                   Dentistry initiated disciplinary action against the dentist for negligence,
                   malpractice, or incompetence. The Board had investigated the dentist
                   after receiving several complaints. Two other dentists not associated with
                   the chain had malpractice lawsuits brought against them.
 
                   Five Orthodontists Provided Services to an Extremely High
                   Number of Children; One Orthodontist Provided an Extremely
                   Large Number of Services Per Child
                   Orthodontists in New York provided services to an average of
                   531 Medicaid children in 2012. Five orthodontists, however, each
                   provided services to more than 2,100 children, and one of these
                   orthodontists provided services to 4,870 children.
                   All five of these orthodontists most often provided periodic treatment
                   visits, which are billed for on a quarterly basis, regardless of how many
                   visits occurred during the quarter. Periodic treatment accounted for almost
                   half of the services these orthodontists provided in 2012. These
                   5 orthodontists had a minimum of 43,564 visits with 17,365 children over
                   the course of the year. The orthodontist who provided services to
                   4,870 children had at least 12,598 visits with these children in 2012.
                   The high volume of children seen by each of these five orthodontists raises
                   concern about whether they are able to ensure that each child receives
                   treatment that meets professionally recognized quality-of-care standards.
                   Moreover, it is possible that the orthodontists billed for services that they
                   did not even provide. As noted earlier, a recent OIG audit found
                   inappropriate billing by providers in New York State for orthodontic

                   19
                      Six of these dentists worked for this dental chain in 2012, whereas one dentist had
                   previously worked for the dental chain but was working at another dental clinic in 2012.


Questionable Billing for Medicaid Pediatric Dental Services in New York (OEI-02-12-00330)                 9
                   services provided to a significant proportion of sampled beneficiaries.20
                   Some of these services were provided without the required approval, while
                   other services were undocumented or were never provided.
                   Additionally, one orthodontist provided a large number of services per
                   child. This orthodontist averaged seven services per child, compared with
                   an average of four services per child for all orthodontists. See Table 3 for
                   more information on orthodontists who provided services to an extremely
                   high number of children or provided an extremely high average number of
                   services per child.

                   Table 3: Orthodontists Who Provided Services to an Extremely High
                   Number of Children or Provided an Extremely Large Number of Services
                   Per Child
                                                         Average for              Threshold for          Number of
                              Measure                   Orthodontists *           Questionable       Orthodontists Who
                                                                                     Billing        Exceeded Threshold
                     Total Number of Children
                                                                         531                2,181                        5
                     Served
                     Average Number of
                                                                            4                   7                        1
                     Services Per Child

                   Source: OIG analysis of New York Medicaid claims data, 2013.
                    * Includes orthodontists who served 50 or more Medicaid children in 2012.




                   20
                      OIG, New York Improperly Claimed Medicaid Reimbursement for Orthodontic
                   Services to Beneficiaries in New York City, A-02-11-01003, October 2013.


Questionable Billing for Medicaid Pediatric Dental Services in New York (OEI-02-12-00330)                                10
                   CONCLUSION AND RECOMMENDATIONS
                   Dentists who participate in Medicaid provide much-needed access to
                   dental services for children in this program. When children lack such
                   access, untreated decay and infection in their mouths may result in more
                   complicated and expensive dental and medical interventions later in life.
                   At the same time, we have concerns about the extreme billing patterns of a
                   number of general dentists and orthodontists in New York. Specifically,
                   29 general dentists and orthodontists—representing 3 percent of dental
                   providers we reviewed—received extremely high payments per child;
                   provided an extremely large number of services per child; or provided
                   certain selected services, such as pulpotomies or extractions, to an
                   extremely high proportion of Medicaid children. Although some of their
                   billing may be legitimate, providers who bill for extremely large amounts
                   of services warrant further scrutiny.
                   Our findings raise concerns that certain providers may be billing for
                   services that are not medically necessary or were never provided. They
                   also raise concerns about the quality of care provided to these children.
                   Prior OIG reports have also found evidence of vulnerabilities in the
                   oversight of Medicaid dental providers. Additionally, OIG has identified
                   some specific vulnerabilities regarding the practices of certain dental
                   chains. Notably, almost a third of the general dentists with questionable
                   billing were associated with a single dental chain that had settled lawsuits
                   for providing services that were medically unnecessary or that failed to
                   meet professionally recognized standards of care to children.
                   Together, these findings demonstrate the need to improve the oversight of
                   Medicaid pediatric dental services. OIG is committed to conducting
                   additional studies of dental providers and may issue recommendations to
                   CMS in a future report. We are also committed to examining access to
                   Medicaid dental services and to continuing to conduct investigations and
                   audits of specific dental providers with questionable billing.
                   The State must also use the tools at its disposal to effectively identify and
                   fight fraud, waste, and abuse, while at the same time ensuring that children
                   have adequate access to quality dental care in the Medicaid program.
                   Therefore, we recommend that the New York State Department of Health:
                   Continue to monitor general dentists and orthodontists to
                   identify patterns of questionable billing
                   The State currently provides oversight of billing practices in numerous
                   ways. Among other things, the State has claims-processing “edits”
                   (system processes to ensure proper payment of claims), conducts “prior
                   approval” reviews for certain services, investigates complaints, and


Questionable Billing for Medicaid Pediatric Dental Services in New York (OEI-02-12-00330)     11
                   performs data analysis that may result in investigations. The State should
                   continue to rely on its ongoing monitoring in this area and consider this
                   report’s findings when developing further enhancements to its systems for
                   monitoring billing by dental providers. Monitoring pediatric dental
                   services can result in cost savings, as well as ensuring that children receive
                   quality dental care.
                   Ensure that the State employs adequate safeguards to monitor
                   general dentists and orthodontists under managed care
                   As part of its transition to a managed care environment, the State must
                   ensure that managed care entities employ adequate safeguards to monitor
                   dental providers. Managed care claims by dentists and orthodontists
                   should be subject to claims-processing edits and “prior approval” reviews,
                   just as fee-for-service claims were prior to the transition. Additionally, the
                   State should collect detailed data from its managed care entities to conduct
                   proactive data analysis. These data should include the specialty of the
                   dentist and all of the services provided by each dentist.
                   Ensure appropriate followup on the general dentists and
                   orthodontists identified as having questionable billing
                   In a separate memorandum, we will refer for appropriate action the dental
                   providers whom we identified as having questionable billing.




Questionable Billing for Medicaid Pediatric Dental Services in New York (OEI-02-12-00330)      12
                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   The New York State Department of Health (the Department) neither
                   agreed nor disagreed with our recommendations. However, the
                   Department identified actions it has taken or plans to take that support our
                   first recommendation. It stated that the New York State Office of the
                   Medicaid Inspector General (OMIG) is actively investigating and
                   monitoring numerous orthodontists and general dentists. It noted that
                   OMIG is also developing a system to identify questionable billing for
                   orthodontic treatments and that OMIG’s dental staff will continue its
                   oversight of billing practices by conducting prepayment reviews and
                   record reviews to actively identify overpayments, unacceptable practices,
                   and criminal activity. We continue to emphasize the importance of using
                   the methods outlined in this report as a basis for further enhancements to
                   the Department’s ongoing monitoring activities.
                   The Department also outlined current requirements and processes that are
                   in place that support our second recommendation. It noted that managed
                   care plans are required to develop special investigation units that detect
                   possible fraud and abuse. In addition, the Department stated that it closely
                   monitors managed care dental managers and—through ongoing review of
                   “fair hearing” results for dental services—evaluates whether they are
                   following proper procedures. It also stated that it routinely reviews dental
                   vendors who manage the dental benefit to ensure that they are following
                   standard practices as prescribed by law. Lastly, it noted that the dental
                   vendors evaluate the provision of services and authorize them only when
                   they are medically necessary.
                   The Department did not indicate whether any steps were planned to
                   address our third recommendation. It stated that OMIG will continue to
                   monitor encounter data from managed care organizations as well as fee-
                   for-service claims data in order to identify questionable billing by dental
                   providers.
                   The full text of the Department’s comments is provided in the Appendix.




Questionable Billing for Medicaid Pediatric Dental Services in New York (OEI-02-12-00330)        13
                   APPENDIX

                   Agency Comments




Questionable Billing for Medicaid Pediatric Dental Services in New York (OEI-02-12-00330)   14
Questionable Billing for Medicaid Pediatric Dental Services in New York (OEI-02-12-00330)   15
Questionable Billing for Medicaid Pediatric Dental Services in New York (OEI-02-12-00330)   16
                   ACKNOWLEDGMENTS
                   This report was prepared under the direction of Jodi Nudelman, Regional
                   Inspector General for Evaluation and Inspections in the New York regional
                   office, and Nancy Harrison and Meridith Seife, Deputy Regional
                   Inspectors General.
                   Judy Kellis served as the team leader for this study. Other Office of
                   Evaluation and Inspections staff from the New York regional office who
                   conducted the study include Lucia Fort. Central office staff who provided
                   support include Clarence Arnold, Meghan Kearns, and Christine Moritz.




Questionable Billing for Medicaid Pediatric Dental Services in New York (OEI-02-12-00330)   17
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
